                                     Executive Summary:
                                     Security Control Review of the
                                     CFPB’s Cloud Computing–Based
                                     General Support System

2014-IT-C-010                                                                                                July 17, 2014

Purpose                                     Findings

The Federal Information Security            Overall, we found that the CFPB has taken a number of steps to secure its cloud
Management Act of 2002 (FISMA)              computing–based GSS in accordance with FISMA requirements. However, we
requires the Office of Inspector General    found that improvements are needed to ensure that FISMA processes and
(OIG) to evaluate the effectiveness of      controls are effective and consistently implemented across all information
the information security controls and       security areas for the GSS. Our report includes recommendations to strengthen
techniques for a subset of the agency’s     security controls for the GSS in four information security areas: system and
information systems, including those        information integrity, configuration management, contingency planning, and
provided or managed by another              incident response.
agency, a contractor, or another
organization. To meet FISMA                 The Chief Information Officer concurred with our recommendations and outlined
requirements, we reviewed the               actions that have been or will be taken to address our recommendations. We will
information system security controls for    follow up on the implementation of each recommendation in this report as part of
the Consumer Financial Protection           our future audit activities related to the CFPB’s continuing implementation of
Bureau’s (CFPB) cloud computing–            FISMA.
based general support system (GSS).
                                            Given the sensitivity of information security review work, our reports in this area
                                            are generally restricted. Such is the case for this audit report.
Background

The CFPB’s strategic plan emphasizes
the need for a flexible, scalable
information technology (IT)
infrastructure that is capable of meeting
current needs and sustaining the
agency’s future growth. To meet this
objective, the CFPB has invested in a
cloud computing–based GSS that
provides the IT infrastructure to support
the agency’s applications and common
enterprise services, such as e-mail,
instant messaging, and file storage. The
GSS is jointly managed and operated by
the CFPB and a third party, and it is
classified as a moderate-risk system.


For more information, contact the OIG at 202-973-5000 or visit http://oig.consumerfinance.gov.
